NO.

_____________

IN THE
SUPREME COURT OF THE UNITED STATES
LORENZO DAVIS,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
JOINT MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS
COMES NOW Petitioner, Lorenzo Davis, by and through his counsel of record, Doris
Randle-Holt, Federal Public Defender for the Western District of Tennessee, by Needum L.
Germany, III, Assistant Federal Defender, pursuant to Supreme Court Rule 39.1 and 18 U.S.C.
ยง 3006 A(d)(7), and requests leave to file the attached Petition for Writ of Certiorari to the United
States Court of Appeals for the Sixth Circuit without prepayment of costs and to proceed in forma
pauperis. The Federal Public Defender was appointed to represent the petitioner in the district
court.
Dated this 17th day of September, 2020.
Respectfully submitted,

/s Needum L. Germany, III for
Doris A. Randle-Holt
Federal Public Defender for the
Western District of Tennessee
By: Needum L. Germany
Assistant Federal Public Defender
Attorneys for Petitioner
200 Jefferson, Suite 200
Memphis, Tennessee 38103
(901) 544-3895

